December 10, 2008

KATHLEEN AINSWORTH
VICE PRESIDENT, RETAIL OPERATIONS

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

VICE PRESIDENTS, AREA OPERATIONS

SUBJECT: Audit Report – Contract Postal Unit Bonding
         (Report Number FT-AR-09-005)

This report presents issues concerning procedures for monitoring the adequacy of
contract postal unit (CPU) bond amounts. We identified these issues during our audit of
the fiscal year (FY) 2008 Postal Service Financial Statements – St. Louis Information
Technology and Accounting Service Center (IT/ASC) (Project Number
08BM001FT001). This audit addresses the financial risk associated with inadequate
bond coverage. See Appendix A for additional information about this audit.

Conclusion

Policies and procedures for establishing CPU bond amounts were adequate.
Specifically, the requirements for establishing bond amounts were sufficient to protect
Postal Service accountabilities. However, procedures for monitoring bond amounts
needed strengthening, and existing bond amounts were not always adequate to protect
Postal Service accountabilities.

Procedures for Monitoring Contract Postal Unit Bond Amounts

The Postal Service did not have procedures in place for CPU coordinators to monitor
bond amounts and bond waivers. Specifically, the Postal Service did not have
procedures in place for district CPU coordinators to verify the local CPU’s contracting
officer’s representative (COR) or designee:

   •   Completed the CPU annual financial examination and took corrective action
       based on the results.

   •   Maintained a current file of CPU activities.
Contract Postal Unit Bonding                                                   FT-AR-09-005




    •   Assessed the adequacy of the bond amount as part of their daily responsibilities
        and took corrective action as necessary.

Additionally, the Postal Service did not have (1) procedures established to monitor the
validity of existing bond waivers or (2) established and updated oversight tools for use
by CORs and districts to monitor the adequacy of bond amounts. This occurred
because Postal Service procedures focused primarily on establishing CPUs and initial
bond amounts. When specific procedures for monitoring CPUs and updating bond
amounts and waivers do not exist, there is an increased risk of loss to the Postal
Service. See Appendix B for our detailed analysis of this topic.

As of June 2008, 420 CPUs did not have bonds adequate to cover stamp stock
accountabilities totaling $1,817,127. We will report $1,817,127 of non-monetary impact,
accountable items at risk, in our Semiannual Report to Congress. Because the
maximum monthly accountability report did not include meter accountability, the actual
accountable items at risk could be greater.

We recommend the Vice President, Retail Operations:

1. Clarify procedures for granting bond waivers for contract postal units.

We recommend the Vice President, Retail Operations, in conjunction with the Vice
President, Controller:

2. Develop and implement procedures to ensure that existing monitoring tools, such as
   the Accounting Data Mart reports, reflect current requirements and communicate the
   availability and use of these tools to all applicable personnel.

Management’s Comments

Management agreed with recommendations 1 and 2 and will review the procedures with
the appropriate stakeholders, reissue the procedures to the areas as clarification, and
instruct the areas to forward the procedures to their respective districts. Management
also agreed to establish bond requirements that are in the best interest of the Postal
Service and will revise the current Accounting Data Mart (ADM) report to reflect current
requirements. When appropriate, they will communicate the availability and use of the
tools to the areas for follow-up. They expect to complete these actions by Quarter 2, FY
2009.

Management neither agreed nor disagreed with the $1.8 million non-monetary impact.
However, they stated that to address the monetary impact, which was calculated after
the May 2008 price increase, they will review policies and procedures to address the




                                            2
Contract Postal Unit Bonding                                                                         FT-AR-09-005



bond requirement amounts during the price increase. See Appendix C for
management’s comments, in their entirety.1

We recommend the Vice Presidents, Area Operations:

3. Subsequent to actions taken in response to recommendations (1) and (2), develop
   and implement procedures for local and district monitoring of contract postal unit
   daily activities and annual financial examinations, including ensuring the adequacy
   of the bond amount and validity of existing bond waivers and documenting corrective
   actions taken.

4. Direct the district managers to:

    •   Reiterate bonding requirements to all contract postal unit contractors and
        contracting officer representatives.

    •   Evaluate and update existing bonds and bond waivers, as appropriate, to ensure
        that bond amounts cover full stamp and postage meter accountabilities.

Management’s Comments

All Vice Presidents, Area Operations, agreed with recommendations 3 and 42 and have
taken or planned actions to strengthen controls for monitoring and supporting
compliance with bonding requirements. These include reiterating requirements at
district and local levels and implementing procedures for bond waivers and limits,
annual financial examinations, CPU files, and documentation and monitoring activities
(including updated and new ADM reports as they become available).

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to all the recommendations, and the corrective actions should
resolve the issues identified in the report.

We will continue to follow-up on the issues and corrective actions taken in response to
our recommendations in our FY 2009 financial statement audit.




1
  We did not include the internal document provided by the Vice President, New York Metro Area Operations, that is
used to monitor annual CPU examinations. It was provided only as an example of corrective action taken.
2
  The Vice President, Great Lakes Area Operations, agreed only in part with recommendation 4 because she
indicated that contracting officers are not under the jurisdiction of the area or district. Since we directed our
recommendation to all CPU contractors and contracting officer representatives, and not contracting officers, we do
not view this as a disagreement.


                                                         3
Contract Postal Unit Bonding                                                                          FT-AR-09-005



Observation

During our audit, we found the Postal Service established 1,051 CPUs as sporadic
stores in the Finance Number Control Master (FNCM) rather than on a regular financial
reporting schedule as required. Sporadic stores are units that are established in the
FNCM to transmit Postal Service (PS) Form 1412, Daily Financial Report, on an
irregular frequency. However, management may not establish CPUs as sporadic
stores. Instead, district offices must prepare a CPU request package specifying the
CPU contract type and the days and time the CPU will be open for business.

Per the CPU Program Manager, some districts allowed management to establish CPUs
as sporadic stores. Because these CPUs do not have a regular reporting schedule,
they are not captured as “missing stores” in the Standard Accounting for Retail – Retail
Accounting (SAFR-RA) system when they do not file a PS Form 1412. Consequently,
their reporting status may not be readily brought to the attention of the COR and district
representative, and these CPUs may not report revenues timely and accurately.
Sporadic CPUs can jeopardize timely and accurate revenue reporting and further risk
loss of Postal Service accountable items.

Management’s Comments

The Vice President, Great Lakes Area Operations, stated the only CPUs that should be
sporadic are seasonal CPUs and those that are not open daily. Also, CPUs on the
Sporadic Stores Not Reporting reports have been terminated for some time. Area
Retail and Finance will work with districts to clean up the Sporadic Sites Missing reports
by December 31, 2008.3

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the observation, and the
corrective actions should resolve the issues identified.




3
    The Vice President, Great Lakes Area Operations, was the only vice president to comment on this observation.


                                                           4
Contract Postal Unit Bonding                                               FT-AR-09-005



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:     William P. Galligan, Jr.
        H. Glen Walker
        Susan M. Brownell
        Vincent H. DeVito, Jr.
        Ronald D. Langevin, Jr.
        Janet L. Webster
        Gladys E. Zamora
        Katherine S. Banks




                                          5
Contract Postal Unit Bonding                                                                 FT-AR-09-005



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

A CPU is a supplier-owned or supplier-leased site under contract to the Postal Service.
CPUs are usually located in retail stores or other businesses and accept mail from the
public, sell postage and Postal Service supplies, and provide other selected services.
The goals of the CPU program are to provide customers alternate access in order to
reduce customer wait times in post offices, retain and increase market share, reduce
operational costs, and improve customer satisfaction.

As of July 2008, there were 4,176 active CPUs. Of these, 2,979 CPUs were in the
SAFR-RA system and transmit a PS Form 1412. These CPU contractors must have
bonds to cover stamp and postage meter accountability to indemnify the Postal Service
for any shortage that may occur. The remaining 1,197 CPUs were in the Contract
Access Retail System (CARS) and are not required to be bonded because the
contractors purchase their own stamps and postage meters. As such, they are not part
of the SAFR-RA system and are not required to complete a PS Form 1412. Most new
CPUs will meet the criteria to be established as CARS units.4 However, those that do
not will be in the SAFR-RA system. Also, the Postal Service plans to convert existing
CPUs to CARS if they meet the criteria. As of July 2008, CPUs generated $602 million
in revenue.

District coordinators monitor the establishment of CPUs by host post offices.5 The host
post office’s COR or designee, usually the postmaster, is responsible for all CPU
activities, including financial reporting, and ensuring the bond amount reflects the CPU’s
current full stamp and meter accountability.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of this audit were to determine whether policies and procedures for
establishing and monitoring bond amounts were adequate and whether existing bond
amounts were adequate to protect Postal Service accountabilities.

To accomplish our objectives, we visited one CPU host post office in the Gateway
District to obtain information about bond calculation, criteria, annual financial
examination, and local and district oversight of the adequacy of the bond amount. We
also interviewed employees from the CPU host post office, Gateway District, Retail
Operations, St. Louis Accounting Service Center, and Denver Category Management
Center. In addition, we analyzed bonding information from the ADM and reviewed
applicable policies and procedures.



4
    CARS CPUs must have annual revenues of $100,000 or more and no post office boxes.
5
    A host post office is the main post office in the service area where a CPU is located.


                                                           6
Contract Postal Unit Bonding                                                    FT-AR-09-005



We conducted this performance audit from December 2007 through December 2008 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our
observations and conclusions with management officials on October 15, 2008, and
included their comments where appropriate.

We relied on computer-generated data from the ADM to determine the number and
dollar amount of CPUs that did not have bonds adequate to cover accountabilities. We
did not test the reliability of computer-generated data in ADM for this audit finding.

PRIOR AUDIT COVERAGE

                                     Final Report      Monetary
 Report Title       Report Number        Date           Impact        Report Results

Fiscal Year          FF-AR-07-075   January 25, 2007    None       The bonds for two CPUs
2006 Financial                                                     had expired. For
Installation                                                       another unit, cash and
Audit –                                                            stamp accountability
Contract Postal                                                    exceeded the surety
Units                                                              bond amount. We made
                                                                   no recommendations.
Fiscal Year          FT-AR-05-009   March 15, 2005      None      The Postal Service did
2004 Postal                                                       not have an automated
Service                                                           method for verifying
Financial                                                         whether contract
Statements                                                        stations’ stamp
Audit – St.                                                       accountabilities
Louis                                                             exceeded their bond
Information                                                       authority. The Postal
Technology                                                        Service implemented our
and Accounting                                                    recommendation, which
Service Center                                                    is now closed.




                                             7
Contract Postal Unit Bonding                                                                         FT-AR-09-005



                       APPENDIX B: PROCEDURES FOR MONITORING
                         CONTRACT POSTAL UNIT BOND AMOUNTS

Procedures for monitoring the adequacy of CPU bonds needed strengthening.
Specifically, the Postal Service did not have procedures in place for district CPU
coordinators to verify that the local CPU’s COR or designee:

    •   Completed the CPU annual financial examination and took corrective action
        based on the results.

    •   Maintained a current file of CPU activities.

    •   Assessed the adequacy of the bond amount as part of their daily responsibilities
        and took corrective action as necessary.

Additionally, the Postal Service did not have procedures in place to monitor the validity
of existing bond waivers.6 Finally, the procedures did not provide for establishing and
updating oversight tools for use by CORs and districts to monitor the adequacy of bond
amounts. In fact, the ADM report, Contract Stations Exceeding Bonds, which personnel
use to monitor the adequacy of bond amounts, did not reflect current bonding
requirements. This report showed CPUs with bond amounts exceeding average
monthly stamp accountability only. The report did not identify full stamp and meter
accountability, as required.

This occurred because Postal Service procedures focused primarily on establishing
CPUs and initial bond amounts and did not provide for specific district oversight of CPU
daily activities and annual financial examinations regarding the adequacy of bond
amounts. We visited a host post office7 and determined that, although the COR
completed the annual financial examination, the district coordinator did not have a copy
of the examination and was not aware of the results. In addition, at the time of our visit,
the COR did not have a copy of the bond in the CPU file and did not know if the CPU
had a meter.8 According to the CPU program manager, some CPUs had not completed
the annual financial examination in more than 2 years and do not maintain adequate
files.

According to Postal Service policy, the postmaster, manager, or supervisor of the host
post office is responsible for ensuring that CPU stamp credit counts are conducted
randomly at least every 12 months.9 In addition, the COR’s administrative file should
include a copy of the contract, any modifications, and the original bond, among other
items,10 to ensure the bond covers all stamp stock, accountables, and the value of the

6
  We did not determine how many CPUs had valid bond waivers.
7
  xxxxx xxxxxx xxxx xxxxxx, Gateway District.
8
  The district coordinator later confirmed the CPU had a meter.
9
  Handbook F-101, Field Accounting Procedures, Section 13-7.1, July 2008.
10
   Publication 156, Postal Service Employee Guide to Contract Postal Units, Section 7-3.2.3, August 2005.


                                                         8
Contract Postal Unit Bonding                                                                         FT-AR-09-005



postage on the meter.11 Although procedures state bond waivers are usually not
approved,12 they do not include guidance on when management can waive bond
requirements.

When specific procedures do not exist for monitoring CPUs to ensure the adequacy of
bond amounts and the validity of existing bond waivers, there is an increased risk of
loss to the Postal Service. Furthermore, when bonds do not adequately cover full
stamp and meter accountabilities, the Postal Service is at risk of loss for CPU
shortages. As of June 2008, 420 CPUs did not have bonds adequate to cover stamp
stock accountabilities totaling $1,817,127. Of these, 44 CPUs had total maximum
monthly accountabilities13 of $182,456 but had bond coverage of $1 or less. Because
this amount did not include meter accountability, the actual accountable items at risk
could be greater.




11
   Publication 156, Section 5-7.2.3.
12
   Publication 156, Section 5-7.2.3.
13
   Maximum monthly accountability represents the largest daily stock ledger balance for the month for each CPU.


                                                         9
Contract Postal Unit Bonding                               FT-AR-09-005



                       APPENDIX C: MANAGEMENT’S COMMENTS




                                      10
Contract Postal Unit Bonding        FT-AR-09-005




                               11
Contract Postal Unit Bonding        FT-AR-09-005




                               12
Contract Postal Unit Bonding        FT-AR-09-005




                               13
Contract Postal Unit Bonding        FT-AR-09-005




                               14
Contract Postal Unit Bonding        FT-AR-09-005




                               15
Contract Postal Unit Bonding        FT-AR-09-005




                               16
Contract Postal Unit Bonding        FT-AR-09-005




                               17
Contract Postal Unit Bonding        FT-AR-09-005




                               18
Contract Postal Unit Bonding        FT-AR-09-005




                               19
Contract Postal Unit Bonding        FT-AR-09-005




                               20
Contract Postal Unit Bonding        FT-AR-09-005




                               21
Contract Postal Unit Bonding        FT-AR-09-005




                               22
Contract Postal Unit Bonding        FT-AR-09-005




                               23
Contract Postal Unit Bonding        FT-AR-09-005




                               24
Contract Postal Unit Bonding        FT-AR-09-005




                               25
Contract Postal Unit Bonding        FT-AR-09-005




                               26
Contract Postal Unit Bonding        FT-AR-09-005




                               27
Contract Postal Unit Bonding        FT-AR-09-005




                               28
Contract Postal Unit Bonding        FT-AR-09-005




                               29
Contract Postal Unit Bonding        FT-AR-09-005




                               30
Contract Postal Unit Bonding        FT-AR-09-005




                               31
Contract Postal Unit Bonding        FT-AR-09-005




                               32
Contract Postal Unit Bonding        FT-AR-09-005




                               33
Contract Postal Unit Bonding        FT-AR-09-005




                               34
Contract Postal Unit Bonding        FT-AR-09-005




                               35
